No. 20-414

In the Supreme Court of the United States
Rovi Guides, Inc.,

Petitioner,
v.
Comcast Cable Communications, LLC;
United States of America,

Respondents.
PROOF OF SERVICE
I hereby certify that on November 13, 2020, I caused three copies of the Reply
Brief for the Petitioner Rovi Guides, Inc. to be served by regular mail and electronic
mail to the counsel of record listed below.
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Room 5616
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
United States of America

Donald B. Verrilli Jr.
Munger, Tolles & Olson LLP
1155 F Street NW
Washington, DC 20004
donald.verrilli@mto.com

Counsel for Respondent Comcast Cable
Communications, LLC

I hereby certify that all parties required to be served have been served. I
declare under penalty of perjury that the foregoing is true and correct.

Executed on the 13th day of November 2020.
/s/ Michael E. Joffre
MICHAEL E. JOFFRE
STERNE KESSLER GOLDSTEIN & FOX, PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202.371.2600

Counsel for Petitioner Rovi Guides, Inc.

